NO._______________

IN THE
SUPREME COURT OF THE UNITED STATES
OF AMERICA
MARIA TERESA DUARTE GODINEZ
Petitioner-Defendant
v.
UNITED STATES OF AMERICA
Respondent
On Petition for Writ of Certiorari from the
United States Court of Appeals for the Fifth Circuit.
Fifth Circuit Case No. 20-60596
CERTIFICATE OF SERVICE
I, Peter H. Barrett, a member of the bar of this Court and appointed under
the Criminal Justice Act, certify that today, June 28, 2021 pursuant to Rule 29.5 of
the Supreme Court Rules, a copy of the Petition for Writ of Certiorari and the
Motion to Proceed In Forma Pauperis were served on Counsel for the United
States, addressed to:
The Honorable Elizabeth Prelogar.
Acting Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
22

I further certify that all parties required to be served with this Petition and the
Motion have been served.

/s/ Peter H. Barrett
Peter H. Barrett
Attorney for Defendant Petitioner

23

